Department of Homeland Security
   Ofﬁce of Inspector General

            Supervision of Aliens Commensurate 

                         with Risk 





OIG-11-81                           December 2011 (Revised)
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                   December 23, 2011

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the effectiveness of Immigration and Customs Enforcement’s
decisionmaking process on whether to detain aliens in an Immigration and Customs
Enforcement facility or place them in supervised release. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................4


           Screening of Aliens Prior to Release .......................................................................4 


           Decisions to Detain or Release Aliens .....................................................................6 


           Conclusion .............................................................................................................12 


Recommendations..............................................................................................................12


Management Comments and OIG Analysis ......................................................................13 


Appendices
     Appendix A:          Purpose, Scope, and Methodology ........................................................14 

     Appendix B:          Management Comments to the Draft Report ........................................15 

     Appendix C:          Allocation of ERO Resources ...............................................................17 

     Appendix D:          Specially Designated Countries (Removed) .........................................18 

     Appendix E:          Secure Communities Crime Levels .......................................................19 

     Appendix F:          Uncooperative Countries .......................................................................20 

     Appendix G:          Major Contributors to this Report .........................................................21 

     Appendix H:          Report Distribution................................................................................22 


Acronyms and Abbreviations
     ATD                 Alternatives to Detention 

     CAP                 Criminal Alien Program 

     CBP                 Customs and Border Protection 

     DHS                 Department of Homeland Security 

     DQ&I                Data Quality and Integrity Unit 

     EARM                ENFORCE Alien Removal Module 

     ENFORCE             Enforcement Case Tracking System

     ERO                 Enforcement and Removal Operations 

     FY                  fiscal year         

     ICE                 Immigration and Customs Enforcement 

     INA                 Immigration and Nationality Act

     NCIC                National Crime Information Center 

     SC                  Secure Communities             

     SDC                 Specially designated country 

     TAC                 Third Agency Check 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                Immigration and Customs Enforcement’s mission is to protect the
                security of the American people by enforcing the nation’s
                immigration and customs laws. This includes the identification,
                apprehension, detention, and removal of deportable aliens from the
                United States. Aliens undergoing removal proceedings are either
                held in an Immigration and Customs Enforcement detention facility
                or placed in one of five supervised release options. On September
                30, 2009, 31,306 aliens were in detention facilities, an estimated
                153,000 were incarcerated in federal prisons or state and local jails,
                and 1.5 million were released through a variety of supervision
                options. Our audit objective was to assess the effectiveness of
                Immigration and Customs Enforcement’s decisionmaking process
                on whether to detain aliens in an Immigration and Customs
                Enforcement facility or place them in supervised release.

                Immigration and Customs Enforcement generally has an
                effectively designed decisionmaking process for determining
                whether to detain or release aliens. In most of the cases we
                assessed, officers made reasonable decisions and complied with
                requirements of the Immigration and Nationality Act, Supreme
                Court decisions, and prescribed policies and procedures. However,
                personnel could not always provide evidence that all aliens were
                screened against the Terrorist Watchlist; current policy for
                screening aliens from specially designated countries is not
                effective; and personnel did not always maintain accurate and up­
                to-date information in the case management system. The agency
                has taken action to correct deficiencies in its data quality.

                Immigration and Customs Enforcement officials concurred with
                two of our three recommendations. Appendix B contains written
                responses to the recommendations from Immigration and Customs
                Enforcement.




                   Supervision of Aliens Commensurate with Risk 


                                     Page 1

Background
                           The Immigration and Customs Enforcement’s (ICE) Enforcement
                           and Removal Operations (ERO) is responsible for the detention
                           and removal of deportable aliens from the United States. Aliens
                           enter the United States legally or illegally, for leisure or temporary
                           work, or to seek lawful permanent residence. ERO has 24 field
                           offices and 186 subfield offices, as well as the Deport Center in
                           Chicago, Illinois.1 ERO’s operating budget for fiscal year (FY)
                           2009 was approximately $2.5 billion. (See Appendix C for the
                           allocation of ERO’s budget by program.)

                           ERO identifies and apprehends aliens through a variety of
                           programs and offices. The Criminal Alien Program (CAP) focuses
                           on identifying criminal aliens incarcerated in federal, state, and
                           local facilities and places a detainer2 on criminal aliens to process
                           them for removal before the termination of their sentences. The
                           National Fugitive Operations Program apprehends aliens who fail
                           to surrender for removal or comply with a removal order.

                           Like CAP, ICE’s Secure Communities (SC) Initiative identifies
                           aliens serving sentences in jails. SC uses fingerprint and biometric
                           identification technologies to identify incarcerated aliens. SC
                           categorizes crimes into three levels according to severity (see
                           Appendix E for a list of crimes by level). ICE’s Office of
                           Investigations identifies aliens while investigating issues such as
                           immigration crime, human rights violations, and human and other
                           types of smuggling. In addition, Customs and Border Protection
                           (CBP) apprehends aliens at and between ports of entry and along
                           the nation’s borders. When CBP cannot secure immediate return
                           of an alien, it turns custody of the alien over to ERO.

                           Once ICE takes custody of an alien, processing agents conduct
                           research to determine if the alien has a criminal or immigration
                           history that would require ICE to detain the alien, and to determine
                           if the alien is on the Terrorist Watchlist or wanted by another law
                           enforcement agency.

                           The Enforcement Case Tracking System (ENFORCE), which
                           includes the ENFORCE Alien Removal Module (EARM), is
                           ERO’s primary administrative case management system. EARM

1
  The ICE Deport Center processes deportation dispositions resulting from the Bureau of Prisons, the 

Indiana and Illinois Departments of Corrections, and jails in the Chicago metropolitan area. 

2
  A detainer is a document ERO uses to request that a correctional facility contact ERO prior to releasing an 

alien so that ERO may assume custody and begin a removal proceeding.



                               Supervision of Aliens Commensurate with Risk 


                                                   Page 2

contains information such as the alien identification number,
country of origin, criminal history, status of adjudication
proceedings, and type of supervision. On September 30, 2009,
ERO reported that it had 1,671,879 active alien cases classified as
either detained or nondetained. Detained aliens are those held in
ICE detention facilities, while nondetained aliens are criminal
aliens incarcerated in federal, state, or local jails and aliens
released on a form of ERO supervision. Every case, whether
detained or nondetained, remains part of ERO’s caseload, and
ERO processes and monitors cases as they move through
immigration court proceedings to conclusion.

According to EARM, ERO released the majority of these aliens to
one of five supervision options: (1) Alternatives to Detention
program (ATD); (2) order of supervision; (3) parole; (4) bond; or
(5) order of recognizance. Figure 1 illustrates the distribution of
ERO’s alien population.

       Figure 1: Distribution of ERO’s Alien Population*
                           As of September 30, 2009

                       Released Under Supervision
                            1,487,796 (89%)




                     Incarcerated                Detained
                    152,777 (9%)                31,306 (2%)
     * ERO provided this information; we did not verify its accuracy.

ERO’s operating procedures require levels of supervision based on
an alien’s stage in the removal process, flight risk, or danger to the
public. According to ERO, aliens in immigration proceedings but
not subject to a final order of removal generally require less
supervision than aliens who are subject to a final order of removal
and are awaiting their actual removal. The strictest forms of
released supervision are ICE’s ATD programs, which use

   Supervision of Aliens Commensurate with Risk 


                      Page 3

                    electronic devices to monitor aliens, and orders of supervision,
                    which require aliens to report periodically to ERO. ICE may
                    choose to release aliens who pose a minimal risk to the community
                    or risk of fleeing on parole, bond, or order of recognizance.

                    The primary law governing detention or release of aliens is the
                    Immigration and Nationality Act (INA) of 1965, as amended. The
                    INA grants aliens the right to a removal proceeding before an
                    immigration judge and mandates that ICE detain certain aliens
                    while the removal proceedings are in progress. The INA also
                    defines which aliens are subject to mandatory detention during
                    immigration proceedings. Aliens who are subject to mandatory
                    detention include those convicted of crimes such as the following:

                       •   Terrorism
                       •   Aggravated felonies
                       •   Human trafficking
                       •   Controlled substance violations
                       •   Money laundering

                    We assessed the effectiveness of ERO’s decisionmaking process
                    on whether to detain aliens in an ERO facility or place them in
                    supervised release.

Results of Audit
     ICE generally has an effectively designed decisionmaking process for determining
     whether to detain or release aliens. In most of the cases we assessed, ICE officers
     made reasonable decisions and complied with requirements of the INA, Supreme
     Court decisions, and prescribed policies and procedures. However, personnel could
     not always provide evidence that all aliens were screened against the Terrorist
     Watchlist; current policy for screening aliens from designated countries is not
     effective; and personnel did not always maintain accurate and up-to-date
     information in the case management system.

     Screening of Aliens Prior to Release

                    Terrorist Watchlist

                    In 2005, ICE issued a policy memorandum requiring officers to
                    conduct a search of the National Crime Information Center (NCIC)
                    database immediately upon taking custody of any alien to
                    determine whether the alien is a known or suspected terrorist. ICE
                    officers perform a “wants and warrants” search through the NCIC


                       Supervision of Aliens Commensurate with Risk 


                                          Page 4

                         database to identify aliens who are wanted by another law
                         enforcement agency and aliens who are on the Terrorist Watchlist.

                         We reviewed 59 case files for aliens whom ICE released from
                         custody to determine whether ICE screened them against the NCIC
                         database for terrorist ties. According to NCIC records and ERO
                         case files, ICE did not perform an NCIC check for 2 (3%) of the 59
                         aliens. We contacted NCIC and obtained records confirming that
                         the aliens were not known or suspected terrorists.

                         Although we found only two cases in which ICE officers did not
                         properly screen aliens, releasing a single known or suspected
                         terrorist could have serious ramifications.

                         Screening Aliens From Specially Designated Countries

                         In addition to the Terrorist Watchlist screening, ICE uses a Third
                         Agency Check (TAC) to screen aliens from specially designated
                         countries (SDCs) that have shown a tendency to promote, produce,
                         or protect terrorist organizations or their members (see appendix D
                         for a list of SDCs). The purpose of the additional screening is to
                         determine whether other agencies have an interest in the alien.
                         ICE’s policy requires officers to conduct TAC screenings only for
                         aliens from SDCs if the aliens are in ICE custody. As a result, ICE
                         does not perform a TAC for the majority of its population of
                         aliens, which includes those incarcerated or released under
                         supervision. Figure 2 shows the portion of aliens from SDCs who
                         ICE held in detention.
                                     Figure 2: Population of Aliens From SDCs3
                                                 As of September 30, 2009

                                        Nondetained Aliens – 105,359 (not subject to TAC)




                                          Detained Aliens – 1,521 (subject to TAC)


                         We reviewed 116 case files of aliens from SDCs to determine
                         whether ICE performed the TAC in all instances where ICE policy

3
 As of September 30, 2009, ICE’s database contained records for 105,359 nondetained aliens from SDCs.
ICE performed a TAC screening for some of these aliens because they were in ICE custody before that
date. Other Department of Homeland Security components may have screened other nondetained aliens.


                             Supervision of Aliens Commensurate with Risk 


                                                Page 5

             requires it. ICE officers did not always adhere to the TAC policy
             for screening detained aliens from SDCs. ICE should have
             performed a TAC prior to the alien’s release in 56 (48%) of these
             cases. ICE did not screen 4 of the 56 aliens requiring a TAC.

             ICE does not have an effective policy in place to ensure that all
             detained aliens from SDCs undergo a TAC screening. ICE did not
             screen the remaining 60 (52%) aliens in our sample because ICE
             did not detain the aliens in custody (51), because the Department
             of Justice granted the aliens relief from removal proceedings (7),
             or because ICE apprehended them before the date the policy went
             into effect (2). ICE risks releasing an alien with ties to terrorist
             organizations if officers do not perform a TAC on all detained and
             nondetained aliens from SDCs.

Decisions to Detain or Release Aliens
      The INA grants ERO the authority to detain or release and monitor aliens
      who are not subject to mandatory detention. Once ERO encounters an
      alien, officers should screen the alien to evaluate the alien’s criminal and
      prior immigration history and to determine if the alien is on the Terrorist
      Watchlist. Officers also evaluate humanitarian factors and have the option
      to release aliens for extenuating circumstances. For example, ICE may
      release aliens who are nursing mothers, sole providers, young or elderly,
      or have medical conditions affecting the alien or the alien’s family. ERO
      supervisors review and approve all decisions to detain or release aliens.

      In addition to the 175 cases we reviewed to assess ERO’s screening
      process, we assessed officer custody decisions in 732 active alien cases.
      We selected cases where ERO released criminal aliens or detained aliens
      who had no criminal convictions or convictions for minor crimes. In
      addition, we selected cases where ERO either detained or released fugitive
      aliens and suspected gang members. We determined whether ERO
      officers detained aliens who were subject to mandatory detention, posed a
      threat to the public, or were likely to abscond; or released aliens with
      supervision that was commensurate with the risk they posed (see detailed
      audit methodology in Appendix A).

             Criminal Aliens Not in ERO Custody

             According to ERO records, on September 30, 2009, the
             nondetained alien population included 168,204 aliens convicted of
             SC Level 1, 2, or 3 crimes. Figure 3 illustrates the distribution of
             crime levels for released or incarcerated aliens in ERO’s database.



                 Supervision of Aliens Commensurate with Risk 


                                    Page 6

                                Figure 3: Distribution of Secure Communities Crime Levels
                                                          As of September 30, 2009
                           70,000
                                                                               59,952
                           60,000
                                        53,121
                           50,000

                           40,000                             37,404


                           30,000

                           20,000                                                                 17,727


                           10,000

                               0
                                        Level 1               Level 2        Level 1 or 2*        Level 3


                             * The length of a sentence determines whether the offense is a Level 1 or
                             Level 2 crime. We did not determine the lengths of sentences in these cases.

                           ERO uses the SC crime levels to prioritize enforcement actions and
                           focuses immigration enforcement on the most dangerous criminal
                           aliens. The most dangerous criminal aliens are those charged with
                           or convicted of a Level 1 offense, including homicide, kidnapping,
                           and sexual assault (see Appendix E for a list of crimes by level).
                           According to ERO records, 8,278 aliens had homicide convictions,
                           8,146 had sexual assault convictions, and 2,124 had kidnapping
                           convictions. The INA mandates that ERO detain aliens convicted
                           of these crimes during the removal process.

                           We reviewed 284 cases involving aliens convicted of Level 1
                           crimes to determine why ERO did not detain them. We also
                           determined whether ERO provided a level of supervision
                           commensurate with the risk the alien posed to the public.
                           According to our analysis, 217 (76%) criminal aliens were not in
                           ERO’s custody but were in federal prisons or state or local jails
                           serving sentences for their crimes. For example, ICE encountered
                           an alien serving a 25-year sentence in an Arizona prison for
                           multiple convictions, including murder, attempted murder, and
                           weapons violations. ICE placed a detainer on the alien, requesting
                           the prison to notify ICE before releasing the alien.4




4
 While we did not assess whether ERO placed detainers on all incarcerated aliens eligible for removal, our
office issued an audit report that addresses the effectiveness of ICE’s identification process, which includes
determining whether the alien is removable and placing a detainer when applicable. See U.S. Immigration
and Custom’s Identification of Criminal Aliens in Federal and State Custody Eligible for Removal from the
United States (OIG-11-26), January 2011.


                                Supervision of Aliens Commensurate with Risk 


                                                    Page 7

                             ICE released 53 (19%) criminal aliens under supervision because
                             their countries of origin did not issue the necessary travel
                             documents, such as a passport, within the 90-day statutory initial
                             removal period. Although the INA mandates that ERO detain
                             these criminal aliens during the removal process, ICE cannot
                             detain aliens indefinitely. According to the 2001 Supreme Court
                             decision Zadvydas v. Davis, ICE generally can only detain an alien
                             beyond the initial removal period if it determines that the alien is
                             likely to abscond if released, poses a danger to the public, or is
                             likely to obtain travel documents in the near future. Even then,
                             ICE may not normally detain an alien for more than 180 days if
                             there is no significant likelihood of removal in the reasonable
                             foreseeable future5.

                             The governments of Cambodia, Cuba, Iran, Laos, Pakistan, and
                             Vietnam are generally uncooperative and will not issue travel
                             documents when ERO tries to repatriate aliens to these countries
                             (see Appendix F for a list of uncooperative countries). Since it is
                             unlikely that aliens from these countries will obtain travel
                             documents, ERO must eventually release most of them. For
                             example, ERO encountered a Cambodian who had multiple
                             convictions for child abuse and sexual assault. ERO detained the
                             alien in 1999 after he completed his prison sentence and an
                             immigration judge ordered his removal. However, because
                             Cambodia did not issue the necessary travel documents, ERO
                             released the alien into an ATD program in 2001.

                             The remaining 14 (5%) of the 284 cases were not in ICE’s custody
                             or under its supervision at the time of our review. For example,
                             ICE removed an alien from the United States in July 2008, but the
                             case was still active in ICE’s case management system. ICE
                             officers did not update information in EARM to show that the alien
                             was deported.

                             Noncriminal Aliens Held in Detention

                             ERO has limited detention resources and prioritizes cases to detain
                             aliens subject to mandatory detention before other aliens. ERO has
                             the discretion to release aliens who are not subject to mandatory
                             detention into other, less restrictive methods of supervision, such
                             as the ATD program or bond. According to ERO records, on
                             September 30, 2009, 15,908 noncriminal aliens were held in
                             detention facilities. We defined noncriminal aliens as those who


5
    The INA contains a provision permitting extended detention for “terrorist aliens.” 8 U.S.C § 1226a.


                                 Supervision of Aliens Commensurate with Risk 


                                                    Page 8

                          did not have an NCIC6 code associated with their cases. An NCIC
                          code indicates that the alien was convicted of, or charged with, a
                          crime. We reviewed 280 cases involving aliens who, according to
                          ICE data, did not have criminal convictions. For each case, we
                          determined the reasons why ERO detained the alien.

                          According to our analysis, ERO officers exercised discretion and
                          detained 72 (26%) noncriminal aliens in accordance with the INA,
                          agency priorities, and prescribed policy and procedures. For
                          example, ERO detained an alien because the alien would not
                          comply with ICE officers and was a threat to the community. In
                          addition, 36 (13%) detainees were unaccompanied juvenile aliens.
                          During removal proceedings, ERO turns custody of these aliens
                          over to the Department of Health and Human Services, which
                          detains unaccompanied juvenile aliens in approved facilities and
                          tries to reunite them with their parents or legal guardians.

                          Of the 280 cases, 170 (61%) aliens actually had criminal histories
                          that required detention. The data that ERO provided did not
                          contain the NCIC code indicating that these aliens were criminals.
                          In some cases, there was a delay from the time of our data request
                          to when officers entered the criminal history. In other cases,
                          officers documented the criminal history in physical case files but
                          not in EARM. For example, an alien had multiple convictions
                          dating back to 1978. The convictions included homicide, a
                          weapons offense, larceny, and burglary. ERO apprehended and
                          deported the alien on six separate occasions since 1986. However,
                          ERO did not record the criminal history until May 2010, when an
                          officer entered 13 convictions or charges into EARM.

                          The remaining two cases were not in ICE custody at the time of
                          our review. For example, ICE released an alien on bond in March
                          2009, but the alien still appeared in ICE’s detained population on
                          September 30, 2009.

                          Actions ICE Has Taken to Improve Data Quality

                          ICE has taken several steps to improve the quality of the data in
                          EARM. ICE established a Data Quality and Integrity Unit (DQ&I)
                          in 2008. The purpose of the DQ&I is to ensure that data in EARM
                          are accurate, reliable, and timely. The DQ&I initiated efforts to
                          identify and correct errors in EARM, and developed a guide for
                          officers to use when processing aliens. In addition, ICE made data

6
  The National Crime Information Center maintains a law enforcement database that defines codes
representing types of crimes.


                              Supervision of Aliens Commensurate with Risk 


                                                 Page 9

quality a priority by including it in performance evaluations for
field office directors.

Low-Level Criminal Aliens Held in Detention

According to ERO records, on September 30, 2009, ERO was
detaining 1,504 aliens convicted of SC Level 3 crimes. These
include crimes such as immigration violations, property damage,
commercialized sex offenses, and extortion (see Appendix E for a
full list of SC Level 3 crimes). Although these crimes are not as
egregious as Level 1 or 2 crimes, the INA requires detention for
some Level 3 crimes, such as commercialized sex offenses.

We analyzed 57 Level 3 criminal alien cases. For each case, we
determined the reasons why ERO detained Level 3 criminals.
According to our analysis, 45 (79%) aliens were subject to
mandatory detention pursuant to requirements in the INA.

For the remaining 12 (21%) cases, the aliens were not mandatory
detainees; however, officers decided to detain the aliens on the
basis of risk, and in accordance with INA requirements, ICE
priorities, and prescribed policies and procedures. For example,
ICE detained a suspected gang member because he posed a risk to
the public. According to EARM, the alien’s only convictions were
violation of immigration law and falsifying documents. Neither
conviction required mandatory detention.

National Fugitive Operations Program

The National Fugitive Operations Program’s primary mission is to
locate and apprehend fugitive aliens within the United States.
Fugitive aliens are those who have failed to leave after receiving a
final order of removal, deportation, or exclusion; or who have failed
to report to ERO after receiving a notice to appear. Arresting and
removing fugitive aliens is one of ICE’s priorities. The number of
arrests increased from FYs 2003 through 2009, as illustrated in
Figure 4.




   Supervision of Aliens Commensurate with Risk 


                     Page 10

                   Figure 4: Increase in Fugitive Alien Arrests
                                           FYs 2003–2009
40,000

                                                                34,155   34,759
35,000
                                                       30,407
30,000


25,000


20,000
                                              15,462
15,000


10,000                             7,959
                      6,584

 5,000
           1,900

    0
           FY03       FY04         FY05       FY06     FY07     FY08     FY09


  We reviewed 59 fugitive alien arrests made during FY 2009. For
  each case, we determined whether ICE detained fugitive aliens
  pursuant to requirements of the INA. ICE detained 47 (80%)
  fugitive aliens apprehended in FY 2009 and released the remaining
  12 (20%). Officers exercised their discretion and released the
  aliens for humanitarian reasons. The following examples illustrate
  cases where officers exercised discretion and released fugitive
  aliens on an order of supervision.

         •	 A mother who was the sole provider for two minor children

         •	 A 71-year-old alien

         •	 A criminal alien who suffered a broken neck in a car
            accident

  ICE’s Office of Investigations—Operation Community Shield

  ICE’s Office of Investigations arrested 1,785 gang members and
  associates, criminals, and other aliens during its 2009 Gang Surge
  Operation. The operation was part of the larger, nationwide
  Operation Community Shield, which targeted transnational street
  gangs involved in human smuggling and trafficking, narcotics
  smuggling and distribution, weapons smuggling and arms
  trafficking, and other crimes. According to ICE’s Office of
  Investigations, violent transnational criminal street gangs represent
  a threat to public safety in neighborhoods across the United States.
  ICE’s Office of Investigations generally recommends that ERO
  detain gang members to protect the public.


         Supervision of Aliens Commensurate with Risk 


                              Page 11

               We reviewed 52 gang member arrests during the Gang Surge
               Operation in 2009. Upon arrest, ICE turned the alien gang members
               over to ERO custody for removal. For each case, we determined
               whether ERO overturned ICE’s initial custody recommendations
               and released the aliens. Of the 52 arrests, 47 (90%) aliens were
               subject to mandatory detention or ICE detained them because they
               posed a danger to the public. ICE’s Office of Investigations
               recommended that ERO release three (6%) aliens because they were
               juveniles (two) or participating in an ongoing ICE investigation
               (one). The remaining two (4%) aliens were incarcerated in federal
               prisons or local jails. We did not identify cases where ERO
               overturned ICE’s initial custody recommendations. However, we
               determined that immigration judges later released six of the aliens
               from detention, and ERO released one into an ATD program.

Conclusion
        In most of the cases we assessed, ICE officers made reasonable decisions
        regarding the appropriate levels of supervision and complied with
        requirements of the INA, Supreme Court decisions, and prescribed
        policies and procedures. ICE’s process and procedures to screen aliens to
        determine the appropriate levels of supervision are generally well
        designed and being followed. ICE needs to enforce the requirement to
        screen aliens against the Terrorist Watchlist and improve its policies and
        procedures regarding screening aliens from SDCs and updating the
        information in its case management system.

        Recommendations
               We recommend that the ICE ERO Director:

               Recommendation #1: Enforce current policy and procedures for
               screening aliens against the NCIC prior to release, and develop
               procedures to ensure that personnel comply with the policy.

               Recommendation #2: Revise ICE’s current policy to require
               officers to conduct TAC screenings for all aliens from SDCs, not
               just those held in ICE detention facilities.

               Recommendation #3: Develop procedures to ensure that officers
               comply with requirements to maintain accurate and up-to-date
               information in EARM.




                   Supervision of Aliens Commensurate with Risk 


                                     Page 12

Management Comments and OIG Analysis
     We obtained written comments on the draft report from ICE’s
     Chief Financial Officer. We included a copy of the management
     comments in their entirety in Appendix B. The following is an
     evaluation of ICE’s official response.

     Management Response on Recommendation #1

     ICE concurred with this recommendation, and will disseminate a
     broadcast message on April 15, 2011, to the Field Office Directors
     and Deputy Field Office Directors reinforcing the importance of
     conducting NCIC checks prior to release or removal of aliens.

     OIG Analysis: We consider ICE’s proposed action responsive to
     the recommendation and consider the recommendation resolved,
     but it will remain open until ICE releases this message.

     Management Response on Recommendation #2

     ICE did not concur with this recommendation, indicating that the
     agency does not have sufficient resources to screen all aliens from
     SDCs.

     OIG Analysis: ICE’s current TAC policy is ineffective because
     ICE does not perform a TAC for 99% of the population of aliens
     from SDCs. Conducting TACs is additional measure that can
     assist ICE in identifying individuals who may pose a threat to the
     United States. According to ICE, TACs have resulted in high-
     profile prosecutions of suspected terrorists. We consider this
     recommendation unresolved and open.

     Management Response on Recommendation #3

     ICE concurred with this recommendation and implemented two
     initiatives that should improve the accuracy of information in
     EARM. ICE updated the Alien Booking Module of the ENFORCE
     system to improve ICE’s capability capture and track an alien’s
     criminal history. Additionally, the ERO DQ&I implemented
     ongoing processes to monitor and validate data in EARM.

     OIG Analysis: We consider ICE’s proposed action responsive to
     the recommendation and consider this recommendation closed and
     resolved.



        Supervision of Aliens Commensurate with Risk 


                          Page 13

Appendix A
Purpose, Scope, and Methodology

                   This report provides the results of our work to determine the
                   effectiveness of ICE’s decisionmaking process on whether to
                   detain aliens in a detention facility or place them in supervised
                   release. To achieve our objectives, we conducted fieldwork at six
                   ICE field offices (Atlanta, Chicago, Denver, Houston, Miami, and
                   Phoenix); reviewed 907 cases; interviewed ICE headquarters
                   officials, deportation officers, and Office of Investigations agents
                   regarding decisions to detain or release aliens; reviewed relevant
                   laws, regulations, standard operating procedures, and policy;
                   identified all active cases in ICE’s EARM database on September
                   30, 2009; reviewed prior audit reports regarding the release or
                   detention of aliens and ICE’s decisionmaking process; assessed the
                   reliability and validity of data provided by ICE by comparing ERO
                   Field Office documentation with data maintained in ICE’s EARM;
                   and identified and analyzed active cases where ICE—

                      •	   Screened aliens against the Terrorist Watchlist;
                      •	   Screened aliens from specially designated countries;
                      •	   Released aliens convicted of aggravated felonies;
                      •	   Detained aliens who did not have criminal convictions;
                      •	   Detained aliens convicted of lesser crimes;
                      •	   Arrested and detained or released fugitive aliens; and
                      •	   Arrested and detained or released aliens who were 

                           suspected gang members. 


                   We conducted our audit between March and December 2010 under
                   the authority of the Inspector General Act of 1978, as amended,
                   and according to generally accepted government auditing
                   standards. Those standards require that we plan and perform the
                   audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based on our
                   audit objectives. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions.




                      Supervision of Aliens Commensurate with Risk

                                        Page 14
Appendix B
Management Comments to the Draft Report



                                                                               ,_""' D.....,   ,......--.'
                                                                               "',,.     ......
                                                                               . .-.OC .,.......
                                                                                                      .............._

                                                                               u.s. Immigr"tion
                                                                               ""d Custom,
                                                                                EnfOlc~m~nt




   Sl:IlJF.cT                       ." .... ~' R<sporu< 10 OIG l:>ran. "Su",,,;,Jo>I <!I All""
                                    C ......<"'""',,·
                                                ,·u. Rid - • ro~ OFFICIAl. ('SF. ONLY
                                    WOliO)· OIG P,,'i'" N&: 1{J.Q91· .Wl~/CE. doni
                                    mil
                                                                                               7.        J..,.,..,.
   L.S 1m..."..,. aII<I eu""m,          Enr~"""","",    (ICE)   .ppr«,.... the _ n"i'y '" ro<rrO ... on
   '"" d",n "'1"""'. "'IXhod i. "" ' ....op<>n« '" to<h ,",,'","k'.t.. i<In.

   Il«"o ...... ,~ ....... ' I, tornc ,",mil poli<y md ~«lIn> fOf !Ocr«\"l i" ~ .Iimo                   "P''''' ,...
   •",CI("~ ... ,~ re i..... Mol oo."eio!> pr<>«>.i,,., '" ,"",Ir' ,.... ".....,...,.,
                                                                         romply ~ ;'b Llw policy.

   'CE .......... ,   [C ~   """'''''" ICE ', En""""""",, .... R<mO""          Or<r.>''''' (0:100)
   I~-=           f i,],J   ()p<,.,,,..,. Do,';,.", ~'Hl d,~..",.~ ... m<l_ '0 '"" ",1<l
   orr"" Dif«,.,. .nd [>cp<Iiy nc1, Ofli« 0,"",,,,,, «;nf"""., the               ""potU"'<
                                                                               of.,.., como,
   polky "'lIwillll ~crc       ,!><d.
                                prior '" ,de>« or [<""",·.1. ""'Il) .rllle <urr"" pol;cy ~ in b<
   discribll,«I ~ il~ '"" bteadcti, ""''''J/<. S"""," OOO)' 0<I<o1i"" ond [)q»o"I'"'''' orr" ... ~,II
   1>< .--,hI< r",      <rt'=n~  Lh>< XCIC ch«l< 'r<          """'~Iotnlll<_      ,II< ,"ro.' «10:>« '"
   «m<>" ,L n., """'"s< .... 11 ... """ '" "< fi,'" .., ''''''' '......... pn l 15. 1011.

   ICE ~U'IU 1110. =m<t>do<""'" , ..... <I<ml .-..011'0..1 lind ~ ",OO; Ol "'."... ~rlh<
   _ ... 0''''."" >p«ifi«i """".
   R.... m.... '~>1 ..... '1: R<>; ", ICE', <OIfTctl' 1,,,Hcy 00 ~u i «    "m,,,,, '0 roOOu<t n",11
   ~y         CIwck. rot , II 01...,. from lij>OCiolly"",,_nI "",,"one..     ""'!"" ,!>He II<IJ i" lU
   <I<\oro i<>n f>< i h....

   ICE..,.. "'" . ""'"' ~i'" ,,", "",,,,",,,,,00..;,,,, ....r "'I"""" "be ,ooai<kred d.o«!. A. ICE
   impl<",,,,,, it> lmm,¥,"" ion ""r""..",,,,,, j.;, .... ;,.O>. i' <DU" ..-iori'"e Lh< u"" "r i" limi'e<!
   "''''''''''"' WhII< ",~ool<. e<:<>Juc" n,    '11'0," . .
                                                        w<D<y ('IIa:I<. n .... O) "" 'he ",,"en' ..,.,.
   <I<I"n«l popul "ion ~r ,",," Ihon 101/.0)(1 .li<l1. !'rom S;lcd. lly l><>il[l1'ooo Counn-ic< (SOC,I
   <>""<" ...   j,..,ifi«l i. Ii"", of OIM ~..,"'Ioad dom..-d< "'''',,''' 10 """"" In polK)", • lAC




                                  Supervision of Aliens Commensurate with Risk 


                                                        Page 15

Appendix B
Management Comments to the Draft Report



  ,"""k "';11 be «>mpl<ted "" ll>e5<lb<rd pt.... to""""""'. In oo!di,;o", ~ I, ,omet<I ICE pol;ey
  to cond.." T "'C  ,"""ko .. 4; opoill< "" .II , lim. """'ina into ICE ,U»ody, ICE"';11 condUCI
  period;e "'vi .... I. en""" "i"in, pol"'~ " bein,enfotUd.-

  Ro<om..... d.'io. _): De>eIop poo;>«<J ..... to en"",,!hot .mun ~I~ .. i<ll requiremools


  H:~

  (EABM~
        Ie_."
  .. main .. in """"" and "1'"- inf<>mlllion in E"'RM,
                        I<,;t ........... In. ""... wpdOl< to tl>< tn_. ""><n _,~ Mod,l.
                I Cri ... Enory _          ... been i~"""n1"" . Tho mandalory ocrem 01 ....... o/f" ...
  in .... roe ...... capt........ <object'S crimi ..... i'y ...... 'i.... f ~ In .... tepon. OIG
  ,i"", an "amp': -..b= .. ,I ... hod m.ki!'l< ,o... i<Iiono. 'II<lodinll' homicide. doIinll \took to
  1978. ICE depon"" .... "ien 01. 'i..... sin:< 19116. b<JI , .. criminal hiotory wa",""'-
  in ... ,be Enkltu "'Ii""      R"""""I Modulo jE"'RM) ..,iI M.y 2010. Tho ""' en_ Enory
  S<r...... (CES) f"'ili ..... crim< """' _        " It!d ..... been O<kk>d to boIh .... Enlot« ",)1m
  Bookinll Mod"", It!d ,.. Enlot« "'lion R<movoI Mod ..... ,lOCk .... cri .... uooo:iOl«l "';,h
  .. ,lion .. 'hey ....,ve ",'''''''' ....... _    on.! remov,l pm<' , ... ",.... ..... n,Ido"';[[
  ptO>'i4< i«...... iron.isy or_inion( <',,-;'y ofinron. ....... .oro .. ICE opa>Iioonal oni,,-
  Thi.".... CES 'apabi'ity 0110 ............ "' ...... crimoo" ....    'i"'"
                                                                        "f en<:<>WIIer. ,I.."
  ...... linl'CE LO ""'} • wbjea" crimi ..Ii'.y lIIto"st-t .... """"".. pm<'" one! """" ;"1 ift



  ,. _Ii_
  """".- _ i n ..

  ICE', ERa Dou Oo""y &.        '"<sri''  (DQ/LI) TiC'" Toam'..., .... "i", _h fi,1d        .fI'",
                      .110<.1 r:>Q&:1 " - ' TIl< ERO r:>Q&:1 """, "';n .......... i<I< .... ~eld
  r:>Q&:1 t<amo .,illl .... """"'ionaI resoorc .. and toolo neccosary LO
  .. p«V<t\l on.! =, """'-                                                 """"lOr
                                                                                                  willi

                                                                                   their .woo ..... 0IIII
                                   Crime En,.,..Stroen "';";IlI i•• ,..., .fllli. ,11M.

  ICt;. "'in, """" ""' ....... to """"" ..... EIlRM ;. ............ poooiblo. 'n ~ '0'0.
  ERO DQ&11><po • ""'" <:to<t-l'Oli.w;.,. q....-y. ERO DQ& I ...... pm<"..... """""'y q....-y
  .r.1I _       I """"  ''*'' .. ..,....;nminol, in EARM .... "., NCICfNLHS ..... " - '
  "",lib'" """"i<l1on indic"" .. in their NCIC crimi"" _         ERO DQ&I ...... 11>< _ Ito of
  .... ~ ....... f1"ect«l f..to! .m... "'" «qUi_ Ih<nt to update <XII eo.. in EAllM. Thi.
  ""P" I ,"","" "","mo , ... the crimi",1 _             on "",""Iy ",n.. ,,,,, ;n EARM willl;n """
  mon!"of ,ue r=>iutlon,

  ICE b<l",v", ,Il00< two inisiosiveo";l1 ..... . major impoc' "" m.inll i";~        """"',Ie ..... _
  .... inf""".l i.. within EARM, ICE rollt ........ _ inno""i •• "'" <OSI-01Tecti~ ...... to
  promote o«<uxy wittm E.ARM.

  ICE roqueou IIIi, m;ommer>looioo be coooid<rod mol,,,,, ..... ,1oood.

  S",",1d you hove ... y q _ or «ID«nt<. p luoe~, MiclIoel Mo~. OIG _101i<>
  Manq<r." 1202. 7)2-6l63. or by .. ""il ~ MicboeJ Mg@'a_.




                                Supervision of Aliens Commensurate with Risk 


                                                     Page 16

Appendix C
Allocation of ERO Resources



                                                          Allocation of ERO Resources for FY 2009
                                             $2,000,000
                                                          $1,774,696
                                             $1,800,000
                                             $1,600,000




                      Dollars in Thousands
                                             $1,400,000

                                             $1,200,000

                                             $1,000,000

                                              $800,000

                                              $600,000

                                              $400,000                 $255,773      $207,879      $188,286
                                              $200,000                                                              $62,722
                                                    $0
                                                           Custody     Transport &    Fugitive    Criminal Alien Alternatives to
                                                          Operations    Removal      Operations      Program        Detention




                          Supervision of Aliens Commensurate with Risk

                                                                Page 17
Appendix D

Specially Designated Countries (Removed)


                    In August of 2011, U.S. Immigration and Customs Enforcement
                    issued a statement on its public website that said,

                    “The specially designated country list as described in Appendix D
                    was created in 2003, is outdated and is being eliminated. The
                    internal procedural guidance has been rescinded and the internal
                    screening criteria and processes are being revised. The list was
                    not based on any judgment that the states listed supported,
                    sponsored or encouraged terrorism. Indeed, many of the states
                    listed are important and committed partners of the United States in
                    countering terrorism. As threats around the world evolve, the
                    United States will continue to work closely with our international
                    partners to ensure the safety and security of people around the
                    globe”. (http://www.ice.gov/about/offices/homeland-security­
                    investigations/oia/screening.htm)

                    In light of ICE’s statement and at ICE’s request, OIG is
                    withdrawing Appendix D to prevent any confusion or
                    misunderstanding.




                       Supervision of Aliens Commensurate with Risk 


                                         Page 18

Appendix E
Secure Communities Crime Levels

                          ICE uses the Secure Communities crime levels to prioritize
                          enforcement actions and focuses immigration enforcement on the
                          most dangerous criminal aliens. The most dangerous criminal
                          aliens are those convicted of or charged with a Level 1 offense,
                          including homicide, kidnapping, and sexual assault.

          Level 1 Crimes                    Level 2 Crimes                    Level 3 Crimes

   Homicide                          Arson                             Sovereignty
   Kidnapping                        Burglary                          Military
   Sexual Assault                    Larceny                           Immigration
   Robbery                           Stolen Vehicles                   Extortion
   Assault                           Forgery                           Damage Property
   Threats                           Fraud                             Family Offenses
   Extortion – Threat to Injure      Embezzlement                      Gambling
   Person
   Sex Offenses                      Stolen Property                   Commercialized Sex
                                                                       Offenses
   Cruelty Toward Child, Wife        Damage Property                   Liquor
                                     w/Explosive
   Resisting an Officer              Traffic Offenses                  Obstructing the Police
   Weapon                            Smuggling                         Bribery
   Hit and Run                       Money Laundering                  Health and Safety
   Drugs (Sentence > 1 year)         Property Crimes                   Civil Rights
                                     Drugs (Sentence < 1 year)         Invasion of Privacy
                                                                       Elections Laws
                                                                       Conservation
                                                                       Public Order Crimes




                             Supervision of Aliens Commensurate with Risk 


                                               Page 19

Appendix F
Uncooperative Countries

                   ICE provided the following list of the top 15 countries that generally
                   will not issue travel documents when ERO tries to repatriate aliens
                   to these countries. This list is not all-encompassing because there
                   are other countries that pose obstacles in repatriating aliens.

                      •	 Bangladesh
                      •	 Cambodia
                      •	 Caribbean combined (Jamaica, St. Lucia, Dominica,
                         St. Vincent and the Grenadines, St. Kitts and Nevis,
                         Trinidad and Tobago, Antigua and Barbuda)
                      •	 China
                      •	 Cuba
                      •	 India
                      •	 Iran
                      •	 Laos
                      •	 Liberia
                      •	 Pakistan
                      •	 Republic of Congo
                      •	 Sierra Leone
                      •	 Somalia
                      •	 Vietnam
                      •	 Zimbabwe




                      Supervision of Aliens Commensurate with Risk 


                                        Page 20

Appendix G
Major Contributors to this Report

                    Jewel Butler, Director
                    Maryann Pereira, Desk Officer
                    Sean Pettersen, Audit Manager
                    Holly Snow, Auditor-in-Charge
                    Sharon Trodden, Auditor
                    Andrew Herman, Auditor
                    Marisa Coccaro, Program Analyst
                    Gary Crownover, Program Analyst
                    Lindsay Kirchoffner, Program Analyst
                    Elizabeth Clark, Program Analyst




                       Supervision of Aliens Commensurate with Risk 


                                         Page 21

Appendix H
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Immigration and Customs Enforcement

                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                         Supervision of Aliens Commensurate with Risk 


                                           Page 22

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
